RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 19THE CHEROKEE NATION,
Petitioner,
v.
DAVID BERNHARDT, IN HIS OFFICIAL CAPACITY, ET AL.,
Respondents,
AND

UNITED KEETOOWAH BAND OF CHEROKEE INDIANS IN OKLAHOMA, ET AL.,
Intervenors/Respondents.
As required by Supreme Court Rule 33.1(h), I, Carter G. Phillips, certify that
the Petition for a Writ of Certiorari in the foregoing case contains 7,680 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 23, 2020.
/s/ Carter G. Phillips
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

